Federal Public Defender
Northern District of Texas
JASON D. HAWKINS
Federal Public Defender
ERIN BRENNAN
MARIA TORRES CHIN
STEPHEN GREEN
STEPHANIE INMAN
MICHAEL KAWI
SHERY KIME-GOODWIN
MARTI MORGAN
DOUG MORRIS
JOHN NICHOLSON
JOEL PAGE
JUAN RODRIGUEZ
COURTNEY STAMPER
RACHEL TAFT
MARIA GABRIELA VEGA
Assistant Federal Public Defenders

525 GRIFFIN STREET
SUITE 629
DALLAS, TX 75202

819 TAYLOR STREET
ROOM 9A10
FORT WORTH TX 76102
817/978-2753

PHONE (214)767-2746
FAX (214)767-2886

1205 TEXAS AVENUE
ROOM 506
LUBBOCK, TX 79401
806/472-7236
500 S. TAYLOR
SUITE 103
AMARILLO, TX 79101
806/324-2370

August 26, 2020
Clerk
Supreme Court of the United States
1 First St., N.E.
Washington, D.C. 20543
Re:

Javier Lopez-Garciav. United States of America

Dear Clerk:
Please find enclosed a copy each of Petitioner's Petition for a Writ of Certiorari,
Motion for Leave to Proceed in Forma Pauperis, and Proof of Service for filing in the abovereferenced matter.
Respectfully yours,
/s/ Kevin Joel Page
Kevin Joel Page
Assistant Federal Public Defender
Enclosed: as noted
cc:

Solicitor General of the United States
Room 5614, Department of Justice
950 Pennsylvania Ave., N.W.
Washington, D.C. 20530

Emily Baker Falconer
Assistant U.S. Attorney
1100 Commerce Street, Ste. 300
Dallas, Texas 75242

